         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Performance of Recovery Act Funds
at the Waste Isolation Pilot Plant




OAS-RA-L-11-09                              July 2011
DOE F 1325.8

(08-93)
United States Government                                                          Department of Energy


Memorandum
          DATE:   July 7, 2011                                   Audit Report Number: OAS-RA-L-11-09
    REPLY TO
     ATTN OF:     IG-35 (A10RA037)
     SUBJECT:     Report on "Performance of Recovery Act Funds at the Waste Isolation Pilot Plant"
            TO:   Manager, Carlsbad Field Office, Environmental Management

                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy's (Department) Carlsbad Field Office (Carlsbad) manages the
                  transuranic (TRU) waste activities of the Waste Isolation Pilot Plant (WIPP) and the
                  National TRU Program. The WIPP, located outside Carlsbad, New Mexico, is the final
                  repository for contact-handled and remote-handled TRU waste, and manages the final
                  disposal of waste received from the Department's waste generator sites. The National
                  TRU program manages both characterization and certification through mobile
                  characterization units and contracts for transportation of TRU waste. Baseline funding
                  for these activities was $230 million in Fiscal Year (FY) 2009. The American Recovery
                  and Reinvestment Act of 2009 (Recovery Act) increased Carlsbad funding by $172.4
                  million to accelerate the Department's TRU waste disposal goals.

                  Carlsbad established specific goals for its Recovery Act work, including creating or
                  retaining 400 jobs; enhancing WIPP infrastructure to accommodate increased waste
                  shipments; adding transportation capabilities to increase waste shipments from 24 to 35
                  per week; and, increasing the cumulative amount of waste certified for disposal as of the
                  end of FY 2011 by 10,000 cubic meters which, according to management, represented the
                  maximum capability of the National TRU Program. The Department's Office of
                  Environmental Management (EM), in general, is planning to expend all Recovery Act
                  funding and complete the associated work scope by September 30, 2011, ahead of the
                  2015 appropriation lapse specified by the Recovery Act.

                  Due to the integral role played by Carlsbad in the accelerated cleanup of TRU waste and
                  the significant increase in funding, we initiated this audit to determine whether the
                  Department is achieving its performance goals for the use of Recovery Act funds.

                  CONCLUSIONS AND OBSERVATIONS

                  Our audit found that, while Carlsbad reported that certain Recovery Act provisions for
                  providing jobs have been met, Carlsbad had not consistently met its waste shipment
                  transportation and certification performance goals. In addition, we noted
that some of the goals used in Carlsbad's Earned Value Management System (EVMS) to
measure performance did not provide management with meaningful information on
performance.

                                 Performance Goals

Carlsbad had not consistently met its transportation and waste certification goals.
Carlsbad planned to increase its goal for waste shipments to WIPP from 24 per week to a
"nominal throughput" of 35 per week. Carlsbad's acceleration plan also provided for a
maximum surge capacity of 41 shipments per week. However, from May 2009 through
December 2010, Carlsbad averaged only 24 shipments to WIPP per week and attained its
goal of 35 shipments per week only twice. While this performance represented a 26
percent increase over its pre-Recovery Act average of 19 actual shipments per week, it
was 31 percent below the rate of performance that Carlsbad planned to achieve.
Similarly, Carlsbad had not achieved its Recovery Act goal of increasing TRU waste
certified for disposal at WIPP by 10,000 cubic meters before October 2011. In March
2010, Carlsbad decreased that goal to 8,570 cubic meters. The goal was again reduced to
6,255 cubic meters late in 2010 with an interim goal of 2,490 cubic meters by December
31, 2010. At the time of our review, Carlsbad was unlikely to achieve even the reduced
goal because it was behind schedule for waste certification and had only certified 1,736
cubic meters through December 2010.

Carlsbad acknowledged that its shipment and waste certification goals have not
consistently been met. According to Carlsbad management, inaccurate waste estimates,
regulatory delays, inclement weather, and operational constraints in preparing sufficient
waste for certification and shipment at waste generator sites contributed to its inability to
meet Recovery Act goals. In December 2010, Carlsbad implemented a new acceleration
plan with corrective actions intended to improve performance of its TRU program.
Under this plan, for example, Carlsbad will increase resources at generator sites to
increase certification capabilities. However, it cannot yet be determined whether this
new initiative will succeed in meeting the 6,255 cubic meter goal within the limited time
that remains before EM's September 2011 deadline for completion of Recovery Act
activities.

                             Performance Measurement

Even though Carlsbad did not consistently meet its waste shipment and certification
goals, it reported it was fully on track in meeting certain EVMS transportation and
certification metrics. The Department requires the use of EVMS to evaluate project and
contractor performance on work performed, citing its effective use as critical to ensuring
success. However, instead of measuring performance on work accomplished with its
Recovery Act funding, two Carlsbad EVMS metrics reported on having the extra trucks
and drivers available for transportation and the personnel deployed to different sites for
waste certification. Since these resources were paid for with Recovery Act funds,
Carlsbad reported success because it had made Recovery Act-funded resources available
for use, as opposed to measuring performance based on the actual utilization of those
resources.

                                      2
 In discussing this issue, management stated that Carlsbad is required to provide sufficient
 resources to handle the maximum planned capacity for certification, shipments, and
 disposal. Accordingly, Carlsbad must pay for such resources regardless of whether or not
 they are used. However, we noted that reporting to senior management favorable EVMS
 scores that measured availability of shipping resources rather than accomplishments
 presented an inaccurate picture of performance and utilization of resources. Management
 also asserted that in addition to its monthly reporting of EVMS performance measures,
 Carlsbad separately reports shipping and certification rates to EM. Based on our
 observations, the separate reporting on these other performance measures typically
 showed performance was behind schedule. However, the benefit of using EVMS as a
 management tool is to measure and assess progress in accomplishing work relative to a
 planned schedule and actual costs incurred so that corrections can be made if progress
 falls short.

 SUGGESTED ACTION

 As noted in DOE Guide 413.3-10, Earned Value Management System, use of EVMS is a
 best practice for project management and the Department's preferred method for
 reporting performance. Accurately reporting performance in the EVMS enables
 management to identify when goals are not being met and take corrective action to
 identify, analyze, and resolve impediments to performance. Since the Department had
 been authorized to spend $172.4 million to accelerate waste operations at WIPP, it is
 especially important that Carlsbad accurately measure performance in the EVMS to
 ensure that resources are fully utilized. Accordingly, we suggest that the Manager,
 Carlsbad Field Office, ensure that future performance metrics created in the EVMS are
 designed in a manner to provide feedback on actual work accomplished relative to money
 spent.

 No formal recommendations are being made in this report and a response is not
 required. We appreciate the cooperation of your staff that provided assistance on
 this audit.



                                      Daniel M. Weeber, Director
                                      Environment, Technology, and
                                        Corporate Audits Division
                                      Office of Inspector General

Attachment

cc: Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Environmental Management, EM-4.1
    Audit Liaison, Carlsbad Field Office


                                      3
                                                                                      Attachment


SCOPE AND METHODOLOGY

The audit was performed from April 2010 to April 2011, and included fieldwork at the Carlsbad
Field Office (Carlsbad) in Carlsbad, New Mexico. The audit covered project documents from
the Department of Energy's (Department) field office, as well as documents from Washington
TRU Solutions, LLC; Los Alamos National Security, LLC; Sandia National Laboratories
Carlsbad Operations; Navarro Research and Engineering, Inc.; and Visionary Solutions, LLC.
To accomplish the objective of this audit, we:

       Reviewed laws and regulations and Office of Environmental Management policies and
       procedures relevant to the management of the American Recovery and Reinvestment Act
       of 2009 (Recovery Act) funding;

       Reviewed contracts and contract modifications for prime contractors and sampled
       contracts for their subcontractors;

       Held discussions with Department officials and their prime contractors;

       Reviewed monthly performance and jobs created reports;

       Judgmentally sampled transactions from prime contractors for Recovery Act transactions;

       Evaluated the rate Recovery Act funds were obligated and expended, and;

       Reviewed acceleration and project plans prepared by Carlsbad and its contractor related
        to management of funds received through the Recovery Act.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. We assessed the significant
internal controls and found no significant weaknesses. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. Finally, we did not rely on computer- processed data to accomplish our audit
objective.

An exit conference was held with officials from the Carlsbad Field Office on June 17, 2011.




                                                4
                                                               IG Report No. OAS-RA-L-11-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
